                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Midwest Region




 ANIMAL AND PLANT HEALTH INSPECTION
                   SERVICE
    Transition and Coordination of Border
Inspection Activities Between USDA and DHS




                           Report No. 33601-0005-Ch
                                         March 2005
                          UNITED STATES DEPARTMENT OF AGRICULTURE

                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250




DATE:         March 31, 2005

REPLY TO
ATTN OF:      33601-0005-Ch

TO:           W. Ron DeHaven
              Administrator
              Animal and Plant Health Inspection Service

ATTN:         William J. Hudnall
              Deputy Administrator
                for Marketing Regulatory Program Business Services

FROM:         Robert W. Young             /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Transition and Coordination of Border Inspection Activities Between USDA
              and DHS


This report presents the results of our audit of the transition of border inspection activities between
USDA’s Animal and Plant Health Inspection Service (APHIS) and the Department of Homeland
Security’s (DHS) U.S. Customs and Border Protection (CBP). The response to the draft report is
included in its entirety as exhibit A, with excerpts and the Office of Inspector General’s position
incorporated into the Findings and Recommendations section of the report.

Based on the response, we have not reached management decisions on Recommendations Nos. 1, 2,
or 3. Management decisions on these recommendations can be reached once you have provided us
with the additional information outlined in the report sections OIG Position following each
recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing
the corrective actions taken or planned and the timeframes for implementation of those
recommendations for which management decisions have not yet been reached. Please note that the
regulation requires that management decisions be reached on all recommendations within a maximum
of 6 months from report issuance.
Executive Summary
Animal and Plant Health Inspection Service Transition and Coordination of Border
Inspection Activities Between USDA and DHS (Audit Report No. 33601-5-CH)

Results In Brief                   Prior to March 2003, USDA’s Animal and Plant Health Inspection Service
                                   (APHIS) had full responsibility for inspecting agricultural products entering
                                   the country from abroad to detect and intercept foreign pests and diseases that
                                   could threaten U.S. agriculture. The agency performed this mission through
                                   its Plant Protection and Quarantine (PPQ) division, a frontline staff of
                                   specialized    agricultural   inspectors.    Following     the    events     of
                                   September 11, 2001, the separate inspection activities once carried out by
                                   APHIS and the other Federal Inspection Agencies1 were assigned to U.S.
                                   Customs and Border Protection (CBP), an agency of the newly created
                                   Department of Homeland Security (DHS). Unlike the other Federal
                                   Inspection Agencies, APHIS maintained its separate existence within USDA
                                   and the responsibility for issuing policies and procedures related to
                                   agricultural border inspections; however, almost 2,500 frontline agricultural
                                   inspectors that had formerly reported to APHIS-PPQ became CBP
                                   employees.

                                   The main objective of our review was to determine whether APHIS had
                                   implemented controls, processes, and procedures, in conjunction with CBP,
                                   to ensure timely and effective coordination of inspection activities that could
                                   impact agriculture. We also evaluated the adequacy of the agencies’
                                   interdepartmental coordination process related to Bovine Spongiform
                                   Encephalopathy (BSE). Finally, we evaluated the adequacy of corrective
                                   actions taken in response to our previous audits of APHIS’ agricultural
                                   quarantine programs. Our review was limited in that we did not have contact
                                   with officials of CBP, and were not able to perform onsite reviews at the
                                   ports-of-entry since these are now under CBP jurisdiction.

                                   We determined, based on our review, that APHIS could not assure that the
                                   CBP-administered process for agricultural inspection operations contains
                                   adequate controls to safeguard U.S. agriculture against the entry of foreign
                                   pests and diseases. Because of the problems noted in the following
                                   paragraphs, we concluded that APHIS officials need to establish a more
                                   effective way to coordinate with officials of CBP to ensure that adequate
                                   safeguards are implemented, and that APHIS personnel have access to all
                                   information needed to verify that U.S. agriculture is being protected.




1
    The U.S. Customs Service in the Department of the Treasury and the Immigration and Naturalization Service in the Department of Justice.
USDA/OIG-A/33601-0005-Ch                                                                                                        Page i
                     Coordination between APHIS and CBP could be more effective

                     The Homeland Security Act transfers agricultural inspection duties to DHS-
                     CBP. However, APHIS retains the primary responsibility for safeguarding
                     America’s plant and animal resources from exotic invasive pests. The agency
                     faces complex management challenges in fulfilling this responsibility
                     because it has limited authority over CBP’s inspection personnel and
                     programs. The authorities and responsibilities of both agencies regarding
                     agricultural inspection operations were outlined in the Memorandum of
                     Agreement (MOA) that was signed by the Secretaries of both Departments
                     immediately before the transition took effect on March 1, 2003. Since then,
                     both APHIS and CBP have faced the task of developing specific protocols
                     and procedures to implement the agreements made in the MOA.

                     APHIS has been unable to effectively evaluate or provide advice to CBP on
                     the agricultural inspection activities transferred to CBP in March 2003. Two
                     key appendices (Appendix 7(b) for Coordination on Regulations, Policies,
                     and Procedures, and Appendix 8 for Communication and Liaison) to the
                     MOA remained unapproved until February 28, 2005, and the critical protocol
                     governing the Joint Agency Quality Assurance Program (JAQAP) under
                     which APHIS personnel would be able to perform onsite reviews at the ports-
                     of-entry, was not approved by CBP until November 2004 with only one port
                     visit being performed through January 2005.

                     During this period, APHIS officials became aware of problems such as
                     inadequate risk assessment data being submitted by CBP, and a reported
                     32 percent drop in the number of pest interceptions following the transition.
                     This was significant because our prior audit (Audit No. 33601-3-Ch,
                     Safeguards to Prevent the Entry of Prohibited Pests and Diseases into the
                     United States, issued February 2003) had already reported a potential
                     “inspection gap” wherein risk assessment results were significantly higher
                     than inspection results. CBP officials have also denied APHIS access to port
                     locations, even when access was requested in June 2004 and again in
                     July 2004, due to specific areas of concern. APHIS personnel have also
                     reported being denied access by officials at certain ports, even to perform
                     duties for which APHIS still has regulatory responsibility. Finally, CBP
                     officials have not provided adequate data on staffing levels and deployment
                     of agricultural inspectors to APHIS for evaluation.

                     APHIS personnel, working in conjunction with their counterparts at CBP,
                     have accomplished much during the transition. Since the signing of the MOA
                     in February 2003, agency officials have developed and maintained working
                     level points of contact, as well as setting up interagency working groups with
                     specific tasks related to implementing the MOA and facilitating the

USDA/OIG-A/33601-0005-Ch                                                                  Page ii
                     transition. By the end of calendar year 2004, the agencies had completed and
                     signed appendices to five MOA articles, containing detailed procedures and
                     protocols related to the MOA. They have also developed a joint-agency
                     quality assurance program; this was a critical protocol because it established
                     a process for APHIS to participate in onsite inspection reviews at port
                     locations, the first of which was performed in December 2004. APHIS has
                     assumed the responsibility for training newly hired CBP agricultural
                     inspectors, and has provided training materials for all other CBP inspectors to
                     give them basic knowledge and orientation on agricultural issues and
                     concerns. The agencies have also developed procedures to ensure that time-
                     sensitive agricultural alerts, which notify CBP personnel on procedures for
                     dealing with issues such as BSE, are processed and sent to the field within
                     24 hours of being presented to CBP by APHIS.

                     Other significant challenges still remain, however. We found that APHIS and
                     CBP inevitably held differing viewpoints on some of their respective roles
                     and authorities regarding the agricultural inspection process. In many cases,
                     the agencies reached agreement and the necessary procedures were approved
                     and put into place. However, the interagency negotiations required to resolve
                     such issues have often been lengthy, and time-sensitive actions have been
                     delayed as a consequence. For example, joint-agency port reviews did not
                     begin until more than 21 months after the transition because of the time
                     required for the agencies to reach agreement on the written plan to implement
                     the program. During this period, APHIS had no direct access to port locations
                     and could not assess how agricultural inspections were being carried out by
                     CBP.

                     Other issues, such as whether APHIS officials should have an advisory role
                     on staffing levels and deployment of agricultural inspectors, are still under
                     discussion. APHIS provided CBP with $194 million in user fees for
                     FY 2004, under an agreement that called on CBP to report its expenditures by
                     fee type (international passengers, commercial aircraft, etc.) by November
                     15, 2004. However, CBP did not provide the agreed-upon data until
                     December 27, 2004, and based on this data APHIS officials continue to
                     express concerns about how the funds are being used. To ensure that
                     agricultural inspection operations function in an effective manner, such issues
                     need to be timely resolved, inclusive of elevation to the Secretarial level.

                     APHIS and CBP have just begun conducting joint port reviews, but we noted
                     areas where that process could be improved. Although APHIS depends
                     primarily on the joint port reviews to assess the effectiveness of CBP’s
                     agricultural inspections, the approved review plan contains only general
                     review steps or guidelines. In addition, APHIS does not have a process to
                     periodically review the extent and results of coverage given to critical areas

USDA/OIG-A/33601-0005-Ch                                                                  Page iii
                     over the course of several port reviews. As a result, APHIS may not be able
                     to identify areas that need additional or more extensive reviews during
                     upcoming port visits.

                     Notification process for incoming shipments need to be expanded

                     As a result of our previous audit work (Audit No. 50601-0003-Ch,
                     “Assessment of APHIS and FSIS Inspection Activities to Prevent the Entry
                     of Foot and Mouth Disease into the United States,” issued in July 2001),
                     APHIS strengthened its controls to prevent meat possibly contaminated with
                     foot and mouth disease from bypassing the FSIS reinspection process.
                     However, these controls need to be extended to cover all meat and poultry
                     products from other countries, particularly those where BSE has been
                     identified as a concern. We found that, because the process developed by
                     APHIS and FSIS does not require CBP (which took over APHIS’ duties
                     under the transition) to notify the FSIS of all incoming shipments that are
                     being sent to FSIS after crossing the border, those shipments could bypass
                     FSIS reinspection without the knowledge of either agency. APHIS officials
                     have concurred that this control needs to be expanded, and has held meetings
                     with FSIS and CBP officials to bring the problem to their attention.

                     Prior audit recommendations require further action

                     Our prior audit of APHIS’ border inspection operations (Audit No. 33601-3-
                     Ch, “Safeguards to Prevent Entry of Prohibited Pests and Diseases Into the
                     United States,” issued in February 2003) disclosed numerous areas that
                     APHIS needed to address to ensure that its inspection process could
                     effectively protect U.S. agriculture. Areas that needed improvement included
                     agricultural quarantine inspections at the ports, risk assessments,
                     determinations of staffing needs, and recordkeeping of inspection results.
                     Many of our audit recommendations remain unresolved because of issues
                     arising from the transition; in many cases, APHIS officials no longer have
                     direct control or even knowledge of port operations that were transferred to
                     CBP. We continue to work with APHIS on these issues, which will require
                     the agency to coordinate with, and issue policies and procedures as needed to
                     CBP.

                     Summary

                     Our work in these areas is not complete. To better evaluate agricultural
                     inspection activities, we are coordinating with DHS’ Office of Inspector
                     General on a joint audit effort. In the interim, however, we believe that
                     APHIS officials need to address the transition-related issues described above,


USDA/OIG-A/33601-0005-Ch                                                                 Page iv
                     particularly the development of a process to ensure timely elevation of
                     critical issues.

Key
Recommendations      We are recommending that APHIS develop a process to elevate unresolved
                     issues to higher levels within the Departments of Agriculture and Homeland
                     Security in cases where such issues materially affect agricultural inspection
                     operations and cannot be timely resolved between agency officials.

                     We are also recommending that APHIS follow up with both CBP and FSIS
                     regarding the need to expand the notification process, developed for
                     shipments arriving from countries with Foot and Mouth Disease restrictions,
                     to include all incoming meat and poultry shipments.

Agency Response      In their response to the official draft report dated March 31, 2005, APHIS
                     officials stated that previous elevations of unresolved interdepartmental
                     issues had not been productive due to high turnover in the policy-making
                     levels of DHS.          They stated that the best means of resolving
                     interdepartmental issues is to elevate important issues which cannot be
                     resolved at the agency levels, and to build effective communications at each
                     level of the organization to address critical issues at the lowest practical level.

                     With regard to expanding the notification system for incoming meat and
                     poultry shipments from FMD-restricted countries to cover all incoming
                     shipments, they believed this would be impractical because of the paper and
                     resource-intensive nature of the FMD notification system. They stated that
                     electronic access by FSIS to CBP’s data systems by FSIS would make this
                     possible, but that FSIS had been unsuccessfully attempting for several years
                     to work out the necessary agreements.

                     Finally, for the pre-transition issues from our prior audit report, APHIS
                     officials agreed that some of these require further discussion between the
                     Departments and provided updated status on some of the issues discussed in
                     the report.

OIG Position         With regard to APHIS officials’ response to the recommendations in Finding
                     1, we agree that issues arising between APHIS and CBP should be resolved
                     at the working levels whenever possible, and our report cites instances where
                     this has been accomplished. While we also agree that elevation of an issue to
                     higher levels does not guarantee its early resolution, it is the only recourse
                     presently available to APHIS when issues critical to the accomplishment of
                     the agency’s mission remain unresolved. A process to ensure timely
                     elevation of such issues could, at least in some cases, expedite resolution.


USDA/OIG-A/33601-0005-Ch                                                                       Page v
                     Therefore we continue to believe that APHIS officials need to implement the
                     recommended process.

                     For Finding 2, we concur that an alternate means of notification between
                     CBP and FSIS would be acceptable so long as it resulted in the FSIS I-
                     Houses receiving notice of all incoming shipments. However, APHIS
                     officials still need to provide us with their plans to work with FSIS and CBP
                     to obtain notification of all incoming meat and poultry shipments.

                     We continue to work with APHIS on the pre-transition issues described in
                     Finding 3, and are also beginning a joint review with DHS’ Office of
                     Inspector General to assess CBP agricultural inspection operations at selected
                     port locations. Through these means we hope to achieve management
                     decisions on the remaining issues from our previous audit report.




USDA/OIG-A/33601-0005-Ch                                                                 Page vi
Abbreviations Used in This Report


APHIS             Animal and Plant Health Inspection Service
AQI               Agricultural Quarantine Inspection
AQIM              Agricultural Quarantine Inspection Monitoring
BRASS             Border Release Advance Screening and Selectivity System
BSE               Bovine Spongiform Encephalopathy
CBP               Customs and Border Protection
DHS               Department of Homeland Security
DFO               Directors of Field Operations
FSIS              Food Safety and Inspection Service
FMD               Foot and Mouth Disease
JAQAP             Joint Agency Quality Assurance Program
MOA               Memorandum of Agreement
MOU               Memorandum of Understanding
PPQ               Plant Protection and Quarantine
SITC              Safeguarding, Intervention and Trade Compliance
T&E               Transportation and Exportation
VRS               Veterinary Regulatory Services
VS                Veterinary Services
USDA              United States Department of Agriculture




USDA/OIG-A/33601-0005-Ch                                                    Page vii
Table of Contents

Executive Summary .................................................................................................................................i
Key Recommendations ........................................................................................................................... v
Abbreviations Used in This Report .....................................................................................................vii
Background and Objectives ................................................................................................................... 1
Findings and Recommendations............................................................................................................ 4
   SECTION 1. COORDINATION BETWEEN APHIS AND CBP ..................................................................... 4
     FINDING 1 ....................................................................................................................................... 4
       Recommendation No. 1: ............................................................................................................. 15
       Recommendation No. 2: ............................................................................................................. 16
   SECTION 2. CONTROLS OVER INCOMING SHIPMENTS ......................................................................... 18
     FINDING 2 ..................................................................................................................................... 18
       Recommendation No. 3: ............................................................................................................. 20
   SECTION 3. PRE-TRANSITION ISSUES .................................................................................................. 22
     FINDING 3 ..................................................................................................................................... 22
Scope and Methodology........................................................................................................................ 31
Exhibit A ................................................................................................................................................ 32




USDA/OIG-A/33601-0005-Ch                                                                                                                     Page viii
Background and Objectives
Background              On March 1, 2003, major components of the Animal and Plant Health
                        Inspection Service’s (APHIS) Agricultural Quarantine Inspection (AQI)
                        programs were transferred to the newly created Department of Homeland
                        Security (DHS). Prior to this transition, APHIS’ Plant Protection and
                        Quarantine (PPQ) division had the primary responsibility for conducting
                        agricultural inspections at U.S. ports-of-entry. APHIS was one of three
                        Federal Inspection Service (FIS) agencies responsible for border inspection
                        operations (the other two were the U.S. Customs Service, of the Treasury
                        Department, and the Immigration and Naturalization Service, of the Justice
                        Department).

                        The purpose of APHIS-PPQ’s inspection programs was to reduce, to
                        acceptable levels, the risk that invasive species of pests and diseases would
                        be introduced into the United States. Such pests and diseases could threaten
                        the abundance and variety of the U.S. food supply, damage our natural
                        resources, and cost American taxpayers millions of dollars for higher-priced
                        food as well as the cost of pest control and eradication programs. At over
                        $400 million in fiscal year 2002 (the last complete fiscal year before the
                        transition), AQI represented the largest single item in APHIS’ overall budget
                        and was the agency’s most visible program with inspections being conducted
                        at 141 land, sea, and air ports-of-entry.

                        The events of September 11, 2001, and the subsequent creation of the
                        Department of Homeland Security under the Homeland Security Act of
                        2002, brought about major changes in the organization and responsibilities of
                        the FIS agencies. Two of the three agencies, U.S. Customs and INS, were
                        incorporated in their entirety into the Department of Homeland Security’s
                        U.S. Customs and Border Protection (CBP) agency. Only APHIS maintained
                        its separate existence as part of the Department of Agriculture. However, the
                        bulk of APHIS’ border inspection activities and authorities were transferred
                        to CBP effective March 1, 2003. As part of this transition, PPQ’s frontline
                        inspection force of almost 2,500 agricultural inspector positions was likewise
                        moved to CBP.

                      To facilitate the transition process, the Secretaries of Agriculture and
                      Homeland Security signed a Memorandum of Agreement (MOA) on
                      February 28, 2003. Among its provisions, the MOA specifies the agricultural
                      inspection responsibilities transferred to CBP and those retained by APHIS;
                      in broad terms, APHIS retained the responsibility for issuing policies and
                      procedures affecting agricultural inspections, but the inspections themselves
                      would be carried out by CBP. Some positions, such as veterinarians and
                      specialized “identifiers” of animal and plant pests and diseases, were retained
USDA/OIG-A/33601-0005-Ch                                                                    Page 1
                                 by APHIS; under the MOA, these employees would continue to provide
                                 technical support for the CBP agricultural inspectors as they once did for
                                 PPQ. Responsibilities for risk assessments performed under the Agricultural
                                 Quarantine Inspection Monitoring (AQIM) program2 were likewise divided,
                                 with CBP performing the actual AQIM inspections at the ports and staffing
                                 key positions related to this function, but with APHIS issuing all relevant
                                 instructions and performing nationwide analyses of the collected data.

                                 Maintaining an effective AQI program under the divided authorities and
                                 responsibilities resulting from the transition has necessitated close
                                 coordination between APHIS and CBP. This is being accomplished in
                                 various ways, including:

                                 -      The drafting of several detailed appendices to provide the necessary
                                        processes and protocols to implement the broad agreements of the
                                        MOA;
                                 -      The creation of a joint agency quality assurance program, under which
                                        APHIS can continue to provide a degree of oversight of the AQI
                                        programs;
                                 -      The establishment of liaison personnel by both agencies to provide day-
                                        to-day contact on matters requiring agency coordination; and
                                 -      Meetings between high-level officials of both agencies to resolve issues
                                        that cannot be handled at the operating levels.

                                 Prior to the transition, the Office of Inspector General (OIG) performed three
                                 audits that covered a broad spectrum of APHIS’ operations at the ports-of-
                                 entry. The reports were:

                                 -      Audit No. 50601-3-Ch, Assessment of APHIS and FSIS Efforts to
                                        Prevent the Entry of Foot and Mouth Disease Into the United States
                                        (issued July 2001);
                                 -      Audit No. 33601-3-Ch, Safeguards to Prevent the Entry of Prohibited
                                        Pests and Diseases into the United States (issued February 2003); and
                                 -      Audit No. 33601-4-Ch, Controls over Permits to Import Biohazardous
                                        Materials into the United States (issued March 2003).

                                 These audits disclosed the need for APHIS to take actions to strengthen the
                                 procedures and controls related to its inspection programs in several respects.
                                 These included the inspection procedures themselves, as well as risk
                                 assessments, staffing activities, the permit issuance process, and controls over
                                 meat shipments entering the country. Although APHIS officials had taken

2
  AQIM is a risk assessment program that consists of statistically selected monitoring inspections performed at various ports and border
crossings. AQIM results are used to assess the risk levels associated with various pathways through which pets and diseases can enter the
country, and also to evaluate the effectiveness of existing inspection programs.
USDA/OIG-A/33601-0005-Ch                                                                                                      Page 2
                     corrective actions on a number of our recommendations prior to the
                     transition, others remain unresolved. This has resulted in part from the
                     transition, which limited APHIS’ ability to obtain information about ongoing
                     operations at the ports-of-entry, and also required that any new policies and
                     procedures on agricultural inspections be issued to CBP in consultation with
                     its officials.

Objectives           The objectives of this audit were to determine whether APHIS had
                     (1) implemented controls, processes and procedures in conjunction with CBP
                     to ensure timely and effective coordination of agricultural inspection
                     activities; (2) established a process to ensure that agricultural alerts and other
                     instructions relating to Bovine Spongiform Encephalopathy (BSE)
                     safeguarding are timely provided to CBP inspection personnel, and (3) taken
                     effective corrective actions on the recommendations from previous OIG
                     audits of the agricultural inspection programs.




USDA/OIG-A/33601-0005-Ch                                                                      Page 3
Findings and Recommendations
Section 1. Coordination Between APHIS and CBP

Finding 1:           APHIS Needs A Process To Timely Elevate Unresolved
                     Interdepartmental Issues

                     Since the execution of the Memorandum of Agreement (MOA) between the
                     Departments of Agriculture and Homeland Security in February 2003, APHIS
                     officials have worked extensively with their counterparts in U.S. Customs and
                     Border Protection (CBP) to effect an orderly transition of border inspection
                     authority to CBP while at the same time ensuring that APHIS’ own mission of
                     protecting U.S. agriculture against the incursion of foreign pests and diseases
                     is met. We determined, however, that because APHIS and CBP have not
                     developed an elevation process to facilitate timely implementation of key
                     agreements and resolution of policy issues between the agencies, APHIS
                     cannot assure that the CBP-administered agricultural inspection activities
                     adequately safeguard U.S. agriculture against the entry of foreign pests and
                     diseases. For instance, because the key agreement implementing the Joint
                     Agency Quality Assurance Program (JAQAP) was not approved by CBP until
                     November 2004, APHIS personnel were not able to perform onsite
                     evaluations of agricultural inspection activities for 21 months following the
                     date of the transition. Other issues, such as APHIS’ access to data on staffing
                     levels and deployment of CBP’s agricultural inspection staff, remain
                     unresolved.

                     The challenges facing the two agencies and their respective Departments are
                     great. Even though the bulk of its frontline inspection staff has been
                     transferred to CBP, APHIS is still responsible for issuing policies and
                     procedures to CBP covering agricultural inspections. Because port operations
                     are effectively controlled by CBP, APHIS officials must accomplish this with
                     a much smaller degree of oversight and supervision than was possible before
                     the transition. CBP, by contrast, has the responsibility for carrying out
                     APHIS policies and ensuring that sufficient staff and other resources are
                     available to perform the Agricultural mission while at the same time
                     protecting the United States against threats related to its primary mission of
                     Homeland Security. To do this, both agencies must work to achieve effective
                     communication and coordination with one another.

                     In the 22 months between the date of the March 2003 transition and the end of
                     calendar year 2004, the two agencies working jointly have made considerable
                     progress in accomplishing these goals. The agencies have, for instance:

                           -   Established working-level points of contact between designated
                               officials within both agencies;
USDA/OIG-A/33601-0005-Ch                                                             Page 4
                           -   Developed appendices to five Articles of the MOA, containing
                               detailed processes to effect the MOA’s broad agreements governing
                               Separation of Function, Transfers of Funds, Cooperation and
                               Reciprocity, and Regulatory Coordination;
                           -   Completed several drafts, and made contacts to resolve issues, on the
                               two remaining appendices to the MOA Articles on Communication
                               and Liaison and Coordination On Policies and Procedures;
                           -   Completed a Joint Agency Quality Assurance Program (JAQAP) in
                               November 2004, and in December 2004 conducted the first joint-
                               agency review of agricultural inspection operations at a major port;
                           -   Established an APHIS-operated training program which has
                               graduated over 100 newly-hired agricultural inspectors as of
                               December 2004, while also providing basic training materials
                               produced by APHIS to all CBP inspection personnel;
                           -   Established a process by which APHIS alerts on time-critical issues
                               such as BSE are distributed to CBP Directors of Field Operations
                               (DFO) within 24 hours of being transmitted by APHIS;
                           -   Provided APHIS manuals to CBP inspectors online, where APHIS
                               can update them on an as-needed basis; and
                           -   Held numerous meetings between officials of both agencies to reach
                               agreements on transition-related issues, including meetings between
                               the Administrators and their Deputies.

                     However, much remains to be accomplished. As noted in the following
                     sections, two key appendices to the MOA, governing policy and procedure
                     issuance and interagency communication, were still unapproved as of the end
                     of calendar year 2004, 22 months after the date of the transition (these were
                     eventually approved on February 28, 2005). Other key agreements, such as
                     the above-described JAQAP and the MOA Appendix on the transfer of funds,
                     were approved only following extended periods of negotiation between the
                     agencies. We attributed this in part to the lack of a written process, within
                     both the MOA and its appendices or in APHIS’ internal procedures, to
                     elevate issues to the Secretarial level when agreement cannot be timely
                     reached by agency officials. The resulting delays in approving key
                     agreements such as those described above have hindered APHIS’ efforts to
                     evaluate the agricultural inspection activities transferred to CBP, and to
                     advise CBP officials when problems are noted.         Other issues, such as
                     APHIS’ access to staffing data on agricultural inspectors, remain unresolved
                     despite numerous attempts to address them at the highest possible levels
                     within APHIS and CBP. Examples of these issues are noted in the following
                     paragraphs.




USDA/OIG-A/33601-0005-Ch                                                                   Page 5
                               MOA Appendix 7(b) For Coordination On Regulations,
                               Policies, and Procedures

                               This Appendix was not approved as of December 2004, even though
                               six different drafts were developed and submitted to CBP for
                               approval between July 2003 and July 2004. It was subsequently
                               approved on February 28, 2005, but the important provisions it
                               contains were not in effect during the first 2 years of the transition
                               period.

                               Article 7 of the MOA, Regulations, Policies, and Procedures,
                               specifies that APHIS retains responsibility for developing and issuing
                               regulatory or other guidance covering the agricultural functions
                               transferred to CBP, and for training CBP employees as needed to
                               apply and implement them. CBP, in turn, is responsible for carrying
                               out the functions transferred by APHIS in accordance with these
                               policies and procedures. The Article also provides that each agency
                               may issue new regulations, policies, and procedures that affect the
                               other, but only after consulting and coordinating with the other.
                               Appendix (a) to this article, approved in July 2003, outlines the
                               process that APHIS must follow to issue regulations and procedures
                               affecting CBP’s agricultural inspection operations. However, the
                               corresponding restrictions on CBP’s issuance of regulatory or
                               procedural guidance that affect agricultural inspection activities are
                               contained in the recently-approved Appendix (b). Some of its
                               provisions could have provided guidance to officials of both agencies
                               on significant issues that have arisen during the transition process.
                               For instance:

                           -     One provision of the Appendix would have required CBP to
                                 “…Inform PPQ of any significant operational changes involving
                                 staff coverage which have an impact on pest risk, and give PPQ an
                                 opportunity to discuss these proposed changes prior to final
                                 implementation of such a directive.” As noted later in the Finding,
                                 APHIS-PPQ has received little information from CBP on staffing
                                 levels or on any risks that may result from a lack of staffing at key
                                 ports-of-entry or border crossings.

                           -     Another provision would have required CBP to inform APHIS of
                                 any “significant changes in operational resources that would
                                 impact the effective administration of procedures as established in
                                 PPQ manuals that have an impact on pest risk.” A CBP official
                                 made a statement to the media in August 2004 regarding a new

USDA/OIG-A/33601-0005-Ch                                                                     Page 6
                             policy under which intercepted materials could be disposed of
                             rather than inspected for pests. APHIS was not officially notified
                             of this policy, and an APHIS official we interviewed stated that
                             they have no confirmation that this has been formally issued, or of
                             whether it is being followed at all ports. We have concluded that
                             such a policy, if implemented, could result in an understatement of
                             the reported pest risk for the affected pathways, with consequent
                             effects on staffing and other policy decisions affecting them.

                           MOA Appendix 8 For Communication and Liaison

                           Several drafts of this Appendix were submitted to CBP for approval
                           throughout 2003 and 2004, and APHIS officials stated that both
                           agencies regarded it as a high priority for completion and approval
                           because it affects the ability of APHIS personnel to perform key
                           functions not transferred under the MOA, such as the ability to
                           review and approve compliance agreements and to perform pest
                           identifications. These functions require access to documents and port
                           locations, which some APHIS personnel have reported (as late as
                           January 2005) was not being granted by CBP.             APHIS-PPQ
                           Headquarters officials have stated that in some cases, decisions
                           regarding access are made by individual CBP officials at the ports,
                           and information received from APHIS personnel at that level indicate
                           that these policies vary from port to port. APHIS and CBP disagreed
                           at the Headquarters level on issues involving port access by APHIS
                           personnel, and believed that some of the terms of the Appendix
                           needed to be amended in order to be acceptable to APHIS. However,
                           these terms were unchanged in the version that was eventually signed
                           on February 28, 2005.

                           Article 8 of the MOA, which covers Communication and Liaison,
                           states that “…DHS will provide USDA with access to, subject to
                           national security considerations and agreed upon information sharing
                           protocols, port environs and port information/databases necessary to
                           fulfill USDA’s responsibilities.” To better define the rights and
                           responsibilities of both agencies under this broad directive, APHIS
                           and CBP worked to draft an Appendix to provide the necessary
                           protocols to implement the Article.

                           APHIS regulations require that any person engaged in handling or
                           disposing of foreign garbage such as aircraft cleaners and caterers,
                           must have an annually renewed compliance agreement. Although the
                           Appendix for Articles 2 and 3 of the MOA gives CBP the
                           responsibility for inspecting and monitoring incoming aircraft and

USDA/OIG-A/33601-0005-Ch                                                               Page 7
                           vessels, it does not transfer the responsibility for approving and
                           renewing the compliance agreements. Thus, while the MOA gives
                           CBP the responsibility for onsite monitoring, APHIS officials
                           believed that their veterinarians also need to be onsite and have
                           access to documentation to provide technical expertise necessary to
                           the approval process. In addition, the Appendix to Article 3 requires
                           APHIS to provide pest identification services to CBP, a duty that
                           requires regular access to port locations. APHIS officials have stated
                           that CBP Headquarters, citing security reasons, has required that
                           APHIS personnel such as veterinarians and pest identifiers give
                           2 weeks written notice before making visits; some ports have
                           required up to 3 weeks notice.

                           APHIS officials have contended that this provision was intended to
                           apply only to joint port visits performed under the JAQAP (described
                           below), and should not restrict APHIS personnel from performing
                           regulatory responsibilities that require them to visit the ports. These
                           officials have stated that the requirement for prior written notice of
                           every planned visit seriously impacts the ability of APHIS personnel
                           to carry out their required functions. The various policies followed
                           by officials at individual ports further complicate the process.
                           However, they stated that CBP officials did not agree to include
                           language into the Appendix that would grant APHIS personnel
                           specific rights of access to carry out these duties. The approved
                           Appendix dated February 28, 2005, states that “APHIS will make
                           local contacts/arrangements with the CBP Port Director, or designee,
                           for access to FIS areas by local APHIS Veterinarian Medical
                           Officers, Identifiers, or…SITC Officers.” APHIS officials have also
                           disagreed with the wording of the Appendix which specifies that
                           “CBP has the ultimate discretion as to whether to grant APHIS’
                           request for information.”

                           Plan For Conducting APHIS-CBP Joint Port Reviews

                           Joint port reviews conducted by APHIS and CBP are intended to
                           provide oversight for those agricultural functions transferred to CBP.
                           According to APHIS officials, these are the primary means by which
                           APHIS will be able to assess how effectively CBP is implementing
                           its agricultural policies and procedures at the ports-of-entry and
                           border crossings. However, the process of making joint port visits
                           was not timely begun because of the length of time needed to obtain
                           CBP’s approval on the written plan to implement it.



USDA/OIG-A/33601-0005-Ch                                                                 Page 8
                           The joint APHIS-CBP team assigned to develop a quality assurance
                           process finished drafting its written plan to implement the Joint
                           Agency Quality Assurance Program (JAQAP) in December 2003,
                           and it went to CBP for approval on February 2, 2004. However,
                           requests for changes by CBP officials required the preparation of two
                           additional drafts between then and September 13, 2004. APHIS
                           officials stated that additional delays were encountered when CBP
                           officials provided drafts to their Directors of Field Operations
                           (DFO’s) for review and comment, and it was not until the first week
                           of November that the plan was approved (there was no precise
                           approval date, since CBP’s approval was verbal only). Thus, the
                           document that was needed to begin the joint port review process was
                           not put into place until 9 months after it was first given to CBP for
                           review, and 20 months after the date of the transition. During this
                           entire period, agricultural inspection operations were being
                           conducted at the ports and border crossings under CBP direction,
                           with APHIS oversight and input limited only to certain areas such as
                           AQIM results provided by CBP to APHIS Headquarters.

                           We also noted that the approved JAQAP plan was less
                           comprehensive than the draft that was initially presented to CBP.
                           Although the original plan had incorporated APHIS review guides
                           for comprehensive coverage of critical operational areas, these had
                           been later omitted. The approved version contained few specific
                           questions that reviewers were required to answer. While this gives
                           greater flexibility to the reviewers at any given port, it also reduces
                           the degree of assurance that review coverage from port to port would
                           be sufficiently standardized to allow APHIS Headquarters officials to
                           identify trends and overarching issues. APHIS officials stated that
                           the reduced coverage resulted from CBP officials wanting a shorter
                           and less comprehensive review plan than was originally submitted.
                           They stated that, with sufficiently experienced staff assigned to the
                           review teams, comprehensive review steps such as those originally
                           developed were not needed. They also stated that there was nothing
                           to prevent APHIS from adapting and using review steps from the
                           original JAQAP Port Review Guides as needed. However, APHIS
                           cannot assure that, for all future port reviews, experienced staff will
                           always be available or that the review steps followed would be
                           sufficiently comprehensive to identify serious deficiencies.

                           During the period that the JAQAP plan was under review by the
                           agencies, APHIS officials became aware of potential problems with
                           risk assessment activities (AQIM) at the ports. The AQIM process is
                           APHIS’ primary tool for assessing the relative risk associated with

USDA/OIG-A/33601-0005-Ch                                                                 Page 9
                           the various pathways (air passengers, maritime cargoes, etc.) through
                           which agricultural pests and diseases can enter the country. CBP,
                           under Article 2 of the MOA, was given the responsibility for
                           performing AQIM inspections at the ports and border crossings, and
                           for providing the results of these inspections to APHIS. APHIS,
                           under Article 3, retained the responsibility for issuing policies and
                           procedures governing the activities carried out by CBP, and also for
                           analyzing the AQIM data submitted by CBP to identify emerging
                           trends or issues that might require action on CBP’s part.

                           As of April 2004, 100 out of 152 CBP-operated AQIM activities
                           (66 percent) had either provided insufficient numbers of AQIM
                           inspection results or had provided no results at all. By October 2004,
                           this percentage was virtually unchanged, despite quarterly reports to
                           CBP officials highlighting these problems. In our prior audit (Audit
                           No. 33601-3-Ch), we reported that APHIS-PPQ did not use the
                           results of its AQIM to evaluate the effectiveness of existing
                           inspection activities. We concluded at that time that the large
                           discrepancies between AQIM and reported interception rates by the
                           inspection staff strongly indicated the need for PPQ to reevaluate
                           inspection processes.

                           Although APHIS officials planned to begin making the
                           recommended comparisons of AQIM interception rates for pests and
                           prohibited materials to interception rates obtained through their
                           normal inspection activities, they stated that the statistical nature of
                           AQIM sampling would cause these comparisons to be less reliable if
                           an insufficient number of AQIM samples are obtained. They also
                           noted that without the ability to observe AQIM operations at the
                           ports, they could not be sure that the inspections were being
                           performed randomly or that other APHIS-prescribed procedures were
                           being followed. Such access was not available until the beginning of
                           the joint review process under the JAQAP in December 2004. Port
                           visits we performed as part of our prior audit disclosed deficiencies
                           with both the numbers of AQIM samples taken and the method of
                           selection, a problem we largely attributed to the fact that key AQIM
                           Coordinator and Risk Assessment Team positions at the ports were
                           often vacant. The responsibility for staffing these was transferred to
                           CBP, and APHIS officials did not know whether progress has been
                           made in filling these positions.

                           Because of these concerns, APHIS officials requested in June and
                           July 2004 that they be allowed to visit three ports to perform reviews
                           of AQIM data. CBP officials denied the requests. Neither this issue

USDA/OIG-A/33601-0005-Ch                                                                Page 10
                           nor the delays in approving the JAQAP plan were elevated above the
                           agency level for faster resolution, and it was not until December
                           2004 that APHIS representatives were able to make their first
                           monitoring visit to a port. Having effective risk assessment and
                           monitoring programs is critical to assuring that the agricultural
                           mission is accomplished, since without them neither APHIS nor CBP
                           could accurately assess the relative risks of each pathway through
                           which pests and diseases can enter the country, or make fully
                           informed decisions regarding the allocation of staff and other
                           resources among these pathways.

                           Staffing of Agricultural Inspectors

                           Under the Homeland Security Act, the APHIS-PPQ personnel
                           performing agricultural quarantine inspections at the ports and border
                           crossings were transferred to CBP. Officials of both agencies agree
                           that the ultimate responsibility for staffing matters now rests with
                           CBP. However, neither the Act nor the MOA makes reference to the
                           role that APHIS officials should have in advising CBP on the
                           deployment of agricultural inspectors. Nor does either of these
                           documents specify any responsibility on the part of CBP to share
                           staffing information with APHIS. APHIS and CBP officials have not
                           reached an agreement on this issue, and CBP has provided very little
                           staffing information despite APHIS’ role in training new inspectors
                           and providing monetary support in the form of transferred user fees.
                           Without such information, APHIS cannot assure that the staffing of
                           agricultural inspectors is based on the level of risk associated with
                           particular pathways or port locations, or to advise CBP officials
                           when changes in staffing patterns are needed to provide the necessary
                           level of agricultural safeguarding.

                           In our prior audit we reported that the majority of APHIS’ inspection
                           personnel were assigned to air passengers and baggage, at the
                           expense of potentially higher-risk cargo pathways. We also reported
                           that most Northern border crossings were not staffed, and those that
                           were staffed generally had too few inspectors to cover a significant
                           number of incoming cargo shipments or to provide round-the-clock
                           inspections at crossings where most agricultural activity occurred
                           outside of normal working hours. Although APHIS had developed
                           staffing models for its managers to use in determining how to
                           allocate personnel, these did not take into account factors such as the
                           disparity between the size of individual product or pest interceptions
                           among the various pathways. Many port directors made staffing


USDA/OIG-A/33601-0005-Ch                                                                Page 11
                           decisions based on their own judgment, and did not use the staffing
                           models.

                           To address all of these conditions, we recommended that APHIS
                           officials prepare a new staffing assessment to take all of these factors
                           into account in order to determine the number of inspectors needed to
                           cover the various pathways based on their respective levels of risk.

                           Resolution of these issues was still under discussion between APHIS
                           and OIG at the time of the transition. APHIS officials proceeded
                           with the staffing assessment, which they provided to CBP on
                           June 1, 2004. However, we noted that the new assessment was based
                           upon the old staffing models that we reviewed in our prior audit, and
                           thus continued to show that the heaviest concentration of inspectors
                           were needed at the airports. It also did not show any staffing
                           recommendations at all for most of the Northern border crossings.

                           APHIS officials stated that CBP officials had informed them that in
                           the future, CBP would perform its own staffing assessments without
                           input from APHIS. They stated that unless CBP does subsequently
                           request that APHIS provide such input, there is no reason for APHIS
                           to expend the time and resources needed to make the recommended
                           improvements to the staffing models.

                           At the time of the transition, 339 of the 2,428 (14 percent) transferred
                           agricultural inspector positions were vacant. Under the Act and the
                           MOA, the responsibility for filling these fell to CBP. However,
                           according to APHIS, CBP officials stated that the process of filling
                           either these vacancies or new ones resulting from attrition would not
                           begin until arrangements were made to transfer user fees from
                           APHIS to CBP as provided for under Article 5 of the MOA. The
                           division of these fees was negotiated between the agencies under an
                           Appendix to this Article, but this was not approved until February 9,
                           2004, more than 11 months after the transition. APHIS officials,
                           who estimated that the number of vacancies at this time to be about
                           500 (21 percent), noted that a special user fee account had been set
                           up as of March 9, 2003, which CBP could have drawn upon at its
                           officials’ discretion even without the signed Appendix. However,
                           CBP did not draw any of the funds until after the signing of the
                           Appendix.

                           The precise number of vacancies at the time the Appendix was
                           approved was unknown to APHIS officials, because CBP does not
                           provide them this information in a formal manner. Following the

USDA/OIG-A/33601-0005-Ch                                                                 Page 12
                           date of the approval, APHIS transferred the agreed-upon amounts to
                           CBP on a quarterly basis. For FY 2004, the transferred funds totaled
                           $194 million. The Appendix also called upon CBP to establish a
                           process in its accounting system to report expenditures by each AQI
                           fee type (international passengers, commercial aircraft, etc.) and to
                           report this information to APHIS for each fiscal year by November
                           15. However, CBP did not provide the agreed-upon data until
                           December 27, 2004, after 2 additional requests from APHIS. A PPQ
                           official stated that, after analyzing this data, they continue to have
                           concerns about CBP’s use of these funds. He stated that based on the
                           best information they have on the number of vacant agricultural
                           inspector positions, CBP should not have expended the full amount
                           of user fees that APHIS provided.

                           Possible indicators of staffing shortage continue to exist, such as the
                           lack of AQIM reporting discussed earlier. Another indicator was
                           CBP’s response to questions by media representatives on a reported
                           32 percent decline in the number of pest interceptions since the
                           transition; as noted earlier, the CBP official being interviewed
                           attributed the decline to a policy under which Quarantined Material
                           Interceptions (QMI’s) are no longer examined for the presence of
                           harmful pests. An APHIS official stated that staffing shortages could
                           have necessitated such a policy. Other indicators include information
                           received from some PPQ veterinarians who have been able to visit
                           port locations, that some ports have suffered significant reductions in
                           the number of agricultural inspectors available. This information has
                           raised concerns among APHIS officials that some locations may not
                           have adequate staff to provide reasonable assurances against the
                           entry of harmful pests and diseases. In one instance, we reviewed
                           correspondence in which the Administrator of APHIS raised
                           concerns about lack of staffing at one port with the Commissioner of
                           CBP that did not result in any action being taken that APHIS officials
                           were aware of. APHIS officials have also expressed their concern
                           over information from CBP on the number of canine teams
                           (agricultural inspectors paired with dogs trained for pest-detection
                           activities) available. They stated that of 130 such teams transferred
                           to CBP in March 2003, fewer than 100 are still in place.

                           APHIS officials have stated that the staffing of agricultural
                           inspectors continues to be a legitimate concern of APHIS,
                           particularly when key ports-of-entry and border crossings are not
                           sufficiently staffed. They stated that CBP does not, however,
                           routinely or formally share staffing information from the ports with
                           APHIS and in fact made it a condition for approval of the JAQAP

USDA/OIG-A/33601-0005-Ch                                                                Page 13
                             plan that staffing would not be covered in the joint port reviews.
                             Discussions on the subject of staffing have been held at levels up to
                             the Deputy Administrator for PPQ and the Deputy Commissioner of
                             CBP, and in at least one instance the discussions involved the
                             Administrator of APHIS and the Commissioner of CBP. APHIS
                             officials have stated that, while the responsibility for staffing
                             decisions ultimately rests with CBP, APHIS needs to play an
                             advisory role in keeping with its ongoing responsibility for
                             safeguarding U.S. agriculture. We believe that APHIS, with its long
                             history of overseeing the agricultural inspection process, does need to
                             be in a position to advise CBP on staffing concerns, particularly in
                             view of its own ongoing responsibility to safeguard U.S. agriculture.
                             However, to do so, the agency must receive accurate and up-to-date
                             information on the numbers and deployment of agriculture
                             inspectors. CBP officials, for their part, should be receptive to
                             APHIS input on these issues and at least take this into consideration
                             when making staffing decisions.

                     Article 1 of the MOA states that USDA and CBP “…Through agreement and
                     by other means, are committed to working cooperatively now and in the
                     future to implement the relevant provisions of the Act and to ensure
                     necessary support for and coordination of the AQI program components that
                     reside in each Department following the transfer of functions and
                     employees.” However, neither the MOA itself nor any of its Appendices
                     specify what steps the two agencies should take to obtain timely resolution of
                     issues when disagreements such as those noted above prevent the two
                     agencies from fully cooperating on sensitive issues, such as staffing, or delay
                     the start of time-critical operations such as the joint-agency port visits. An
                     APHIS official stated that when agency officials at the operating level cannot
                     timely agree on issues, the only remedy is to elevate the issue to
                     progressively higher levels within the two agencies and their Departments.
                     He stated that any disagreements could, if necessary, be referred up to the
                     level of the Secretaries themselves. However, such elevations had not taken
                     place and there was no written procedure outlining a process to do this, or
                     providing timeframes for elevating critical issues.

                     The issues described above illustrate the problems that can occur when
                     APHIS and CBP officials are unable to agree on important issues, or when
                     excessive periods of time elapse before issues are resolved and necessary
                     agreements and protocols implemented. As stated earlier, APHIS and CBP
                     officials at the operating levels have had numerous meetings and contacts,
                     but these are not always effective in quickly resolving issues that senior
                     managers disagree on. The Deputy Administrator for PPQ stated that
                     meetings have been held with both the Commissioner and Deputy

USDA/OIG-A/33601-0005-Ch                                                                  Page 14
                     Commissioner for CBP, and while the CBP officials were cordial and
                     cooperative at the meetings, these also did not always result in the resolution
                     of the issues being discussed.

                     We believe that, to address sensitive and critical issues such as those
                     described earlier, a formal process needs to be developed – either jointly with
                     USDA-APHIS and DHS-CBP or else independently within APHIS and
                     USDA – to timely elevate unresolved issues as discussed above to the
                     Secretarial level for resolution. Such a process should specify how APHIS
                     and/or CBP would identify issues that need to be elevated, and create
                     Departmentally approved protocols that describe the elevation process. In the
                     case of especially time-critical issues, we believe that the process should also
                     specify timeframes within which the issues should be further elevated if
                     decisions at a particular level cannot be reached.

Recommendation No. 1:

                     Develop a process to timely elevate unresolved issues critical to APHIS’
                     agricultural mission to higher levels within the Departments of Agriculture
                     and Homeland Security.

                     APHIS Response

                     APHIS officials stated that they have elevated a number of unresolved
                     interdepartmental issues, and these have been communicated to DHS by the
                     Under Secretary for Marketing and Regulatory Programs and the Office of
                     the Secretary. However, they stated that because of the large turnover in the
                     policy levels of DHS, this has not proven to be a successful method for
                     resolving most issues. They stated, however, that there is a growing interest
                     within DHS/CBP to resolve issues at a lower level and to establish
                     mechanisms that working level staff and the offices of the APHIS
                     Administrator and CBP Commissioner can use to address issues so they do
                     not need to be elevated higher. Among these would be the establishment of
                     routine meetings between senior officials and between technical staffs to
                     resolve ongoing issues. The response cited the signing of Appendices 7b and
                     8 to the MOA as examples of this process, and noted that the agreement on
                     these appendices provides a foundation to resolve a number of issues related
                     to access by APHIS to mission critical information and access to port
                     facilities that had previously been seriously hampered.

                     As a result, APHIS officials concluded that the best means of resolving issues
                     is to continue the elevation of important issues that cannot be resolved at
                     lower levels, and to build effective communications at each level of the
                     organization to address critical issues at the lowest practical level.

USDA/OIG-A/33601-0005-Ch                                                                   Page 15
                     OIG Position

                     We agree that outstanding issues should be resolved at the lowest practical
                     level. However, the negotiations which took place on the issues cited in the
                     report – such as staffing at the ports, the approval of the MOA Appendices,
                     and approval the JAQAP plan – were, according to the information provided
                     to us by APHIS officials, undertaken using the avenues described in the
                     response. The results in each case were prolonged periods of negotiation
                     which APHIS officials attributed either to fundamental disagreements with
                     their CBP counterparts or to delays resulting from CBP’s internal review
                     processes. Our purpose in recommending an elevation process was,
                     wherever possible, to reduce the delays in resolving issues that are critical to
                     APHIS’ ongoing mission to safeguard U.S. agriculture.

                     We agree that most issues can be resolved at the operating levels of APHIS
                     and CBP, or if necessary at the level of the Administrator and Commissioner.
                     Examples of this are the process for transmitting agricultural alerts from
                     APHIS to the DFO level at CBP, and the cooperation achieved by the two
                     agencies in training both Agricultural Inspectors and CBP Officers.
                     Elevation should be undertaken only for issues that affect APHIS’ ability to
                     perform its mission and which cannot be resolved within reasonable
                     timeframes by officials of the two agencies. We also understand that
                     elevation of an issue to higher Departmental levels does not guarantee a
                     faster resolution, but it does provide the only recourse for agency officials to
                     take when agreement cannot be timely reached through other means. We
                     continue to believe that APHIS needs a policy in place to identify issues that
                     warrant elevation and to provide operating level employees with guidance on
                     when to bring time-critical issues to the attention of their superiors. To reach
                     a management decision, APHIS needs to provide us with an additional
                     response that addresses this concern.

Recommendation No. 2:

                     Upon completion of the process described in Recommendation No. 1, begin
                     the elevation process for any of the issues described in this finding that
                     remain unresolved between officials of APHIS and CBP.

                     APHIS Response

                     APHIS officials stated that the best means of resolving issues is to continue
                     the elevation of important issues that cannot be resolved at lower levels, and
                     to build effective communications at each level of the organization to address
                     critical issues at the lowest practical level.

USDA/OIG-A/33601-0005-Ch                                                                   Page 16
                     OIG Position

                     With the signing of Appendices to MOA Articles 7b and 8 on
                     February 28, 2005, the only critical issue cited in the Finding which remains
                     unresolved is that involving staffing. APHIS officials have not provided us
                     with any information to indicate that there has been any change in the
                     position of the two agencies on this issue.

                     To reach a management decision, APHIS officials need to provide us with
                     either (1) written documentation that this issue has been elevated to at least
                     the Under Secretary level and that discussions have been held at that level
                     with DHS, or (2) an alternative corrective action that can be agreed upon by
                     APHIS and OIG.




USDA/OIG-A/33601-0005-Ch                                                                 Page 17
Section 2. Controls Over Incoming Shipments


Finding 2                        APHIS NEEDS TO ISSUE POLICIES FOR THE STENGTHENING
                                 OF CONTROLS OVER MEAT AND POULTRY PRODUCTS

                                 Prior to the transition of inspection functions to CBP, APHIS had coordinated
                                 with the Food Safety and Inspection Service (FSIS) to strengthen inspection
                                 controls over meat shipments arriving from countries whose products were
                                 restricted due to possible contamination by Foot and Mouth Disease (FMD).
                                 However, we found that these controls were only applicable to imports from
                                 countries with FMD restrictions, and thus did not provide controls over any
                                 other meat shipments, including those from Canada for which Bovine
                                 Spongiform Encephalopathy (BSE) could be a concern. Because CBP
                                 adopted the procedures already being followed by APHIS, the weaknesses we
                                 noted in our 2001 audit of controls to prevent the entry of FMD into the
                                 country may continue to exist for all other incoming meat and poultry
                                 products.

                                 Beginning in April 2001, in response to nationwide concerns over the
                                 possibility that the highly contagious Foot and Mouth Disease could be
                                 introduced into the United States through imported meat shipments from
                                 countries where outbreaks had already occurred, we performed an audit to
                                 assess the controls and procedures in place for both APHIS and FSIS to
                                 prevent infected products from entering the country. One of the conditions
                                 we reported (Audit No. 50601-3-Ch, Assessment of APHIS and FSIS
                                 Inspection Activities to Prevent the Entry of Foot and Mouth Disease Into the
                                 United States, issued in July 2001) was a lack of coordination between the
                                 two agencies in tracking potentially contaminated shipments.

                                 Incoming meat shipments were first inspected by APHIS upon their arrival at
                                 the ports-of-entry, so that a determination could be made based on permits
                                 and other accompanying documentation of whether the product was enterable
                                 or non-enterable. Non-enterable product was either re-exported or destroyed,
                                 while enterable product was released by APHIS and transported to the nearest
                                 FSIS Inspection House (I-House) for that agency’s reinspection3 before its
                                 release into commerce. We found, however, that notifications to FSIS that
                                 meat shipments were en route came through brokers and warehouses rather
                                 than directly from APHIS to FSIS. Since the shipments were conveyed from
                                 the ports to the I-Houses by privately owned transport companies, there was
                                 no physical control to ensure that the shipments arrived at the I-Houses. If

3
  Each meat, poultry, and egg product shipment that enters the country under the authority of APHIS and CBP is transferred to FSIS where
inspectors visually inspect every shipment as well as its accompanying documentation.
USDA/OIG-A/33601-0005-Ch                                                                                                    Page 18
                     FSIS personnel were not notified of incoming shipments, they in turn could
                     not notify APHIS when shipments failed to reach them. In one instance, we
                     found that a shipment totaling over 32,000 pounds of product from an FMD-
                     restricted country bypassed the I-House due to an error. Upon recovery, it
                     was determined that almost 5,600 pounds of product from this shipment had
                     to be destroyed.

                     To correct this weakness, we recommended that APHIS develop a system
                     that required its PPQ officers at the ports to independently transmit the FSIS
                     Form 9540-1 to FSIS rather than depending on third parties such as brokers.
                     Agency officials agreed, and implemented a system under which FSIS was
                     notified directly whenever a shipment from an FMD-restricted country was
                     sent for reinspection. Following the transition in March 2003, CBP assumed
                     APHIS’ former responsibility of coordinating with FSIS and sending the
                     newly required notification when meat shipments are transported to the I-
                     Houses for reinspection.

                     We found, however, in reviewing the notification system established between
                     APHIS and FSIS in 2001, that it was used only for meat shipments entering
                     from countries with FMD restrictions. It would not, therefore, ensure that
                     any other shipments were reaching the I-Houses for reinspection before
                     entering commerce. Through a discussion with an FSIS official, we learned
                     that for meat shipments incoming from Canada, where BSE is the primary
                     concern, a system has been implemented which encourages brokers to send
                     faxed notifications of incoming shipments to the applicable I-Houses.
                     However, the use of these faxed notifications are not required, and FSIS
                     inspectors at one I-House stated that they were still receiving incoming
                     shipments from Canada about twice a week with no prior notification.

                     APHIS officials stated that when the corrective actions were taken they were
                     thought to be sufficient because at that time FMD was the primary concern.
                     In light of the current BSE concerns, they agreed that the system of
                     interagency notifications should be more general and not target only a single
                     disease. During our audit, APHIS officials began to hold discussions with
                     their counterparts at FSIS to explore means to address the problem. They
                     questioned, however, whether it was still APHIS’ place to initiate corrective
                     actions since CBP had taken APHIS’ place performing the frontline
                     inspections at the ports, and because FSIS reinspections do not fulfill any
                     APHIS regulatory requirements except for FMD shipments. They believed
                     that this issue should be addressed by the two agencies directly involved,
                     FSIS and CBP.

                     While we agree that the actual implementation would need to be carried out
                     by CBP and FSIS, we believe that APHIS also needs to be involved in this

USDA/OIG-A/33601-0005-Ch                                                                 Page 19
                     process. The reviews of documentation accompanying meat shipments that
                     CBP performs are required by APHIS regulations. While the FSIS
                     reinspections themselves are not directly required, in the case of shipments
                     from BSE-restricted countries they do support APHIS’ mission through
                     limited verification of the information contained in the documentation. This
                     information, if not representative of what a shipment actually contains, could
                     allow infected product to enter the country.

                     Because of the significant damage that could result if foreign diseases such as
                     BSE are not prevented from entering the country, it is vital that all incoming
                     meat and poultry shipments be reinspected by FSIS before entering
                     commerce. Although the principal corrective actions must be performed by
                     FSIS and CBP, APHIS needs to work with these agencies to ensure that they
                     are fully aware of the situation so that they can coordinate with one another
                     to address it.

Recommendation No. 3:

                     Follow up with both CBP and FSIS regarding the need to expand the written
                     notification system, developed for shipments arriving from countries with
                     Foot and Mouth Disease restrictions, to include all incoming meat and
                     poultry shipments.

                     APHIS Response

                      APHIS officials stated that an expansion of the written interagency
                      notification system currently used to notify FSIS of incoming products from
                      FMD-restricted countries would be impractical due to the number of
                      shipments that would have to be covered and the paper and labor-intensive
                      nature of the existing system. They cited efforts undertaken by FSIS to
                      reach an agreement with CBP that would allow electronic access to CBP’s
                      data on incoming shipments, and stated that this could accomplish the same
                      purpose more efficiently. However, they stated that this would require an
                      agreement for data access, which FSIS has attempted unsuccessfully to
                      obtain for several years from U.S. Customs and CBP. They stated that the
                      International Trade Data System would provide this access, but it is several
                      years away from implementation.




USDA/OIG-A/33601-0005-Ch                                                                  Page 20
                     OIG Position

                     We concur with APHIS officials that an alternate form of notification, such
                     as FSIS access to CBP entry data, is acceptable so long as it provides the
                     means for FSIS personnel at the I-Houses to be aware of all meat and poultry
                     shipments being sent to them for reinspection. We concur also that, if the
                     government-wide ITDS system is several years from implementation, an
                     interim means of communication between CBP and FSIS is needed.

                     However, because FSIS has been unable to obtain the necessary agreement
                     with CBP to obtain access to its entry data, we believe it is in the interest of
                     USDA for APHIS to support FSIS’ efforts to achieve such an agreement. To
                     reach a management decision, APHIS officials need to provide us with their
                     plans to work with FSIS and CBP to obtain notification of all incoming meat
                     and poultry shipments.




USDA/OIG-A/33601-0005-Ch                                                                   Page 21
Section 3. Pre-Transition Issues


FINDING 3:            APHIS Needs To Take And/Or Coordinate Corrective Actions On
                      Unresolved Issues From Our Prior Audit

                     Since the issuance of OIG’s Audit Report No. 33601-3-Ch, Safeguards to
                     Prevent Entry of Prohibited Pests and Diseases Into the United States (issued
                     February 2003), we have worked with APHIS to resolve the problem areas
                     we reported. To correct several of the conditions noted, APHIS officials
                     agreed to issue new policies and procedures. However, in large part because
                     of issues arising from the transition to CBP in March 2003, the agreed-upon
                     corrective actions for several of these issues were never implemented. This,
                     combined with APHIS officials’ inability to directly monitor operations at the
                     ports during the 21 months between the transition and the approval of the
                     JAQAP, raises serious concerns that the problems we noted previously may
                     remain uncorrected.

                     OIG’s Audit Report No. 33601-3-Ch contained 37 recommendations, of
                     which 29 involved issues directly related to the agricultural inspection
                     process. Of these 29 recommendations, we had reached management
                     decisions on only 6 as of December 31, 2004.

                     In the instances noted below, our recommendations called upon APHIS to
                     issue new policies and procedures to correct the conditions reported. While
                     we recognize that many of the responsibilities formerly carried out by APHIS
                     are now the responsibility of CBP, APHIS still retains its responsibility to
                     establish policies and procedures governing the transferred functions.
                     Despite the changed circumstances resulting from the transition in March
                     2003, the issues discussed below remain the concern of APHIS because the
                     agency is responsible to safeguard U.S. agriculture from the threat of foreign
                     pests and diseases; the only difference is that now, APHIS must work through
                     CBP to address them.

                     Agricultural Quarantine Inspection Monitoring (AQIM)

                     In the previous audit, we reported that APHIS-PPQ did not use the results of
                     its AQIM to evaluate the effectiveness of existing inspection activities. We
                     concluded that the large discrepancies between AQIM and reported
                     interception rates by the inspection staff strongly indicated the need for PPQ
                     to reevaluate inspection processes. Specifically:

                     • PPQ analysis of the category of air passenger baggage in
                       FY 2000 disclosed that 1.5 percent of traditional inspections resulted in

USDA/OIG-A/33601-0005-Ch                                                                 Page 22
                        interceptions of prohibited products, while 5.9 percent of AQIM
                        inspections resulted in interceptions of prohibited products.

                     • Similarly, for vehicles entering the country through border crossings,
                       2.8 percent of the AQIM inspections resulted in interceptions of prohibited
                       products, while traditional inspections resulted in only 0.2 percent
                       interceptions of prohibited products.

                     Unless the results of AQIM activities generate inspection procedures to
                     reduce the risk posed by the pathways being measured, the activities have
                     little or no value in reducing the introduction of agricultural pests to the
                     United States.

                     We also reported that APHIS’ AQIM activities were largely confined to
                     traditional pathways that were already heavily inspected as part of the
                     agency’s normal inspection processes. The purpose of AQIM is to evaluate
                     the relative risk levels associated with various pathways through which
                     agricultural pests and diseases could enter the country. Thus, the exclusion of
                     pathways that are not known to be “agricultural” in nature could result in
                     risks associated with these pathways remaining undiscovered and could cause
                     APHIS’ overall risk assessments to be inaccurate. These risk assessments are
                     critical to the overall inspection goals and objectives. In addition, certain
                     known agricultural pathways such as rail cargo were not covered by AQIM.
                     Therefore, we recommended that APHIS redirect its AQIM activities to cover
                     all potential pathways through which pests and diseases could enter the
                     United States, including those not covered by normal PPQ inspections.
                     APHIS officials, in their response to the draft report, agreed that AQIM
                     activities needed to be expanded to cover all pathways.

                     In performing our follow-up work for this audit, we found that APHIS had
                     taken certain corrective actions, including the issuance of AQIM procedures
                     for some of the previously unmonitored agricultural pathways. However, no
                     procedures had been issued to expand AQIM activities to cover pathways
                     which did not already involve known agricultural risks. APHIS officials
                     stated that because of the relatively low rate of “hits” on such pathways, they
                     believed that concentrating the AQIM inspections on the pathways known to
                     be of agricultural risk was a more effective use of inspection resources. They
                     stated that pests could also be identified through marketplace surveys, and
                     then traced back to the pathways through which they entered.

                     Although we agree that the interception rate on pathways of known
                     agricultural risk would tend to be significantly higher than other pathways,
                     even a single interception on a pathway of previously unknown risk could
                     have tremendous significance. For instance, a special AQIM study

USDA/OIG-A/33601-0005-Ch                                                                  Page 23
                     performed by the Port of Miami disclosed the presence of snails on marble
                     tiles imported from Italy, and this is one of the few non-agricultural pathways
                     now being monitored under AQIM. Another involves the Asian Longhorned
                     Beetle, which entered in solid wood packing materials used with non-
                     agricultural shipments. While traceback procedures such as those referenced
                     above did identify this pathway once the beetle had entered and become
                     established, traceback procedures are not always effective in accomplishing
                     this.

                     We agree that the transition has raised new issues (as described in Finding
                     No. 1) with regard to AQIM, but the MOA and its appendices clearly give
                     APHIS the responsibility for issuing policies and procedures for AQIM
                     inspections, including the number of inspections to be performed and the
                     pathways to be covered. We believe, for the reasons stated in the report, that
                     some degree of AQIM coverage is needed for pathways not presently
                     monitored. This could, potentially, be achieved through coordination with
                     CBP, particularly if that agency has its own risk-assessment process whose
                     results could be utilized by APHIS for its own analyses.

                     Inspection of Rail Cargoes

                     We reported in our previous audit that APHIS needed to give greater priority
                     to inspections of inbound rail containers. This was, and continues to be, a
                     major pathway for cargo entering the country. At the time of our audit, the
                     24 Northern border crossings alone were handling about 1.2 million rail
                     containers annually. Many of these crossings had no APHIS personnel
                     onsite, and only one of the five APHIS-staffed crossings we visited was
                     performing rail cargo inspections. One reason was the difficulty of
                     identifying incoming shipments of agricultural interest in sufficient time to
                     have them held for inspection. Although APHIS established additional
                     inspection sites at five inland cities with major rail hubs, the overall
                     inspection rate of rail containers remained very low.

                     We recommended that APHIS develop a system under which all rail cargo
                     would be at least subject to inspection, either at a border crossing or at one of
                     the inland inspection sites. This would include requiring inspectors to utilize
                     the automated manifest system available from U.S. Customs to identify
                     incoming shipments of interest before they reached the borders. As of the
                     time of the transition, these issues had not yet been addressed by APHIS.

                     Another issue we reported on was the lack of a risk assessment process for
                     the rail cargo pathway. Without the ability to compare the relative risk of this
                     pathway against others, such as those relating to air and maritime passengers
                     and cargo, APHIS could not reliably determine what portion of its inspection

USDA/OIG-A/33601-0005-Ch                                                                   Page 24
                     resources should be allocated to rail. APHIS officials initially agreed with
                     the recommendation, but later responded that they had determined an AQIM
                     process for the rail cargo pathway was not feasible. They stated that it was
                     not possible to obtain sufficiently timely or detailed rail cargo manifests to
                     make an AQIM plan feasible. In addition, they cited the lack of appropriately
                     equipped inspection sites to perform the necessary devanning, particularly
                     along the Northern Border. They stated that to address the problems
                     associated with cargo manifests, major regulatory changes involving trade
                     laws and reporting systems would be need to be made and that APHIS does
                     not have the authority to make such changes.

                     We acknowledge the obstacles cited by APHIS officials. However, the value
                     of APHIS’ existing AQIM system is reduced as long as it excludes a pathway
                     as significant as rail cargo. APHIS did not have information on whether CBP
                     has implemented a risk assessment system to help it safeguard that pathway
                     from threats to Homeland Security. However, because both agencies have
                     responsibilities in this area, the solution to this problem may lie in a
                     cooperative effort between the two agencies and their respective
                     Departments.

                     Transportation and Exportation (T&E) Shipments

                     T&E shipments consist of non-enterable cargo that is sealed upon arrival at a
                     U.S. port or border crossing for transshipment across the United States. The
                     seals on T&E shipments may not be removed until the shipments leave the
                     country at pre-approved ports of exit, to prevent any pests they may contain
                     from leaving the sealed containers and having an adverse impact on U.S.
                     agriculture. Although regulations required APHIS to ensure that T&E
                     shipments were re-exported under seal and within the shortest possible time,
                     we found that the agency did not have adequate procedures to reconcile
                     incoming and outgoing shipments. As a result, APHIS could not assure that
                     3,714 of 3,962 T&E shipments that entered the country through the 6 ports of
                     entry we visited had ever left. We recommended that agency officials
                     establish uniform procedures for monitoring and reconciling T&E shipments,
                     including specific procedures for ports of entry and exit to coordinate in
                     reconciling incoming and outgoing shipments. APHIS officials agreed with
                     the need for additional procedures, and stated in their response to the draft
                     report that new guidelines for T&E shipments had been completed in draft
                     form in August 2002, and that these procedures were at that time in the
                     comment phase prior to final issuance.

                     However, during this audit, APHIS officials stated that the new guidelines
                     had never been issued because, under the terms of the MOA, the
                     responsibility for monitoring T&E shipments was transferred to CBP. The

USDA/OIG-A/33601-0005-Ch                                                                 Page 25
                     officials stated that they believed CBP could do what was necessary based on
                     the guidance given in the MOA and in Appendix 2. They also noted that the
                     personnel performing the inspections would be “legacy-PPQ” inspectors who
                     were already familiar with the requirements in this area.

                     Although Article 2 of the MOA does require CBP to “…safeguard shipments
                     during transloading…notify the port of exit… log into treated/T&E database,
                     and…monitor transit movements,” these instructions do not add any
                     additional guidance to the procedures that were already in place at the time of
                     our audit, and which are available to CBP personnel through the existing
                     APHIS manuals. Although the personnel handling T&E shipments may in
                     fact be former PPQ inspectors, there is no guarantee that other inspectors who
                     lack experience with this program would not also be called upon to perform
                     such duties. And, since the problems outlined above took place when the
                     program was being handled by APHIS, the availability of experienced
                     inspectors alone is no guarantee that the necessary reconciliations will be
                     performed.

                     Based on the long history of problems with this program, as reported in two
                     prior OIG audit reports, we believe that the procedures we recommended are
                     still needed to supplement and clarify the broad requirements of the MOA.
                     And, while the actual responsibility for performing the monitoring and
                     reconciliation of T&E shipments now rests with CBP, APHIS retains the
                     authority under Article 7 of the MOA to issue regulations, policies, and
                     procedures covering the transferred functions. Unless APHIS officials can
                     determine that CBP has already issued sufficient written procedures of its
                     own to correct the problems disclosed by our prior audits, we believe that
                     they need to coordinate with CBP, as per the requirements of the MOA, to
                     issue the necessary guidance.

                     Line Release/BRASS Program

                     We found that APHIS had not established any written procedures governing
                     the review and approval of applications for participation in the Line Release
                     Program (now the Border Release Advance Selectivity System, or BRASS).
                     This program, which was under the jurisdiction of the U.S. Customs Service
                     prior to the transition, allowed approved importers to bring in products
                     deemed to be high volume and low risk with little or no inspection. Importers
                     of qualifying agricultural goods could participate in this program, but only
                     with APHIS approval. Lacking written guidelines and an automated system
                     of records, however, APHIS’ approval process was based on very limited
                     information about individual applicants. We noted instances where importers
                     with records of smuggling and other violations were able to continue
                     participating in the program because officials in charge of overseeing the

USDA/OIG-A/33601-0005-Ch                                                                  Page 26
                     program’s approval process were not aware of this information. We
                     recommended that APHIS develop written procedures for this program.
                     APHIS officials agreed with the recommendation, and expected to finish
                     writing the procedures in the fall of 2003.

                     However, our follow-up work in this area disclosed that no procedures were
                     ever issued. As of June 2004, an APHIS official stated that the procedures
                     were still under development and were expected to be completed in
                     September 2004. We were subsequently informed, however, that although
                     the program would continue to operate it might only be available to importers
                     who were already approved for participation. If no new applicants were to be
                     accepted, APHIS officials believed that there was no need for written
                     procedures governing the approval process.

                     Although closing the program to new participants would eliminate one of the
                     problem areas that led us to recommend the development of written
                     procedures, others remain. For instance, we noted in our audit that there
                     were no procedures to ensure that shipments entering through the Line
                     Release Program were at least periodically checked to ensure that the
                     program was not being used as a means of bringing prohibited items into the
                     country without risk of detection. In addition, we noted a lack of any
                     procedures to be followed when importers already participating in the
                     program were found to be involved in smuggling or other program violations.
                     Thus, even if it is determined that no new applicants are to be accepted, the
                     continued operation of the program would still require the development of
                     written procedures as recommended in our report.

                     Devanning of Cargo Containers

                     When inspecting incoming freight containers, APHIS inspectors only
                     infrequently unloaded (devanned) the cargo to perform a comprehensive
                     inspection of the contents. Although devanning was performed as a part of
                     AQIM inspections, not all pathways (i.e. rail cargo) were covered by these
                     procedures. Inspectors at some locations stated that they did not devan
                     cargoes because of a lack of facilities, while others stated that they did not do
                     so because of the time and cost. While we agreed that devanning all
                     containers was impractical, we recommended that APHIS institute
                     procedures for all ports to devan a sample of incoming cargo containers on an
                     ongoing basis, with emphasis to be placed on high risk shipments that involve
                     importers with a history of violations. We also recommended that APHIS
                     ensure that all ports-of-entry possessed the necessary facilities to make
                     possible the needed level of devanning.



USDA/OIG-A/33601-0005-Ch                                                                   Page 27
                     APHIS officials stated that guidance would be provided by June 2003 to
                     ensure that all ports were devanning a sample of cargo containers, dependent
                     on available facilities and resources. However, we found that the agreed-
                     upon procedures had not been developed or issued to CBP. An APHIS
                     official stated that both the “legacy” PPQ officers at the ports and the
                     management at CBP were already aware of the need for intensive inspections
                     and devanning of cargo containers at the ports. As a result, it was believed
                     that there was no need to issue the previously agreed policy following the
                     transition. APHIS could not provide evidence that sample devanning was, in
                     fact, occurring.

                     Based on observations from our prior audit, we found that APHIS lacked a
                     coherent and consistent policy to ensure that any cargo container entering the
                     country had at least a reasonable chance of being devanned for thorough
                     inspection. At the time of our prior audit, U.S. Customs controlled most of
                     the facilities for devanning; these are now under the control of CBP.
                     However, APHIS officials did not have information on CBP’s policies for
                     devanning, or on where agricultural shipments fall into that agency’s
                     devanning priorities. To ensure that agricultural shipments are being
                     devanned, APHIS officials need to work with CBP to issue and implement
                     the necessary policies and procedures for devanning agricultural cargoes.

                     Targeting of High Risk Importers

                     In our prior audit, we found that APHIS had no procedures in place to require
                     inspectors at the ports to target cargo shipments by importers who had
                     histories of smuggling or other serious violations. Although APHIS’ SITC
                     group maintained a database of such importers, officials and inspectors at the
                     ports did not use this resource to perform profile inspections of high-risk
                     shipments. As a result, the agency may have missed opportunities to
                     intercept prohibited products or improperly manifested cargoes and prevent
                     their entry into the United States. At the time of our audit, PPQ and the SITC
                     group had agreed to prepare a draft policy that would require increased
                     targeting of shipments from known violators, but no agreement had been
                     reached on when the policy would be developed or implemented. We
                     recommended that the agency expedite the issuance of this policy, and in
                     their initial response APHIS officials stated that the guidance would be
                     developed and distributed by June 2003.

                     We found during our follow-up work that the guidance was never issued.
                     An APHIS official stated that the SITC team had drafted the guidelines and
                     provided them to APHIS-PPQ for comment. However, the procedures were
                     not issued because it was determined to be impractical for PPQ inspectors at
                     very large ports to review manifest entries on a daily basis and check for high

USDA/OIG-A/33601-0005-Ch                                                                  Page 28
                     risk importers. In lieu of such procedures other actions are being taken. For
                     instance, CBP and APHIS coordinated on a one-time project to target
                     shipments from a selected group of 20 known problem importers. In
                     addition, APHIS plans to advertise for two permanent positions at CBP’s
                     National Targeting Center to help develop criteria for identifying shipments
                     which need to be stopped and held based on agro-bioterrorism concerns.

                     Although we agree that the measures described above are important, they do
                     not actively target shipments from known violators on an ongoing basis. We
                     believe that an increased level of targeting could be achieved through an
                     automated alert system that identifies incoming shipments from targeted
                     importers. These shipments could then be inspected with increased
                     frequency as deemed appropriate by APHIS and CBP officials. As an
                     alternative, APHIS could coordinate with CBP to determine whether that
                     agency has an equivalent targeting program in operation, and whether it
                     could be expanded to include shipments from targeted agricultural importers.

                     Inspection Policies for Cruise Ship Passengers

                     Based on a 12-month national study of incoming cruise ships, APHIS
                     determined that cruise ship passengers were of relatively low risk compared
                     to airline passengers. As a result, the number of inspectors assigned to clear
                     incoming cruise ship passengers and their baggage was very small compared
                     to the number assigned to the air passenger pathway. In reviewing the
                     APHIS study, we noted concerns with its methodology. For instance, the
                     study tended to exclude ships that had visited higher-risk countries such as
                     Jamaica because these normally docked on weekends. The study was
                     conducted only on weekdays to avoid overtime costs. We recommended that
                     the agency conduct a new assessment, and agency officials responded that
                     they had done so. However, we found that the new study referred to in
                     APHIS’ response was a compilation of the original cruise ship study with two
                     other studies that had been conducted at about the same time, and which did
                     not target cruise ships.

                     APHIS officials stated that they believed the existing survey to be statistically
                     valid, and further stated that it supports their conclusion that cruise ship
                     passengers are of a lower risk than international air passengers. They noted
                     that one factor that went into their decision was the fact that cruise ship
                     passengers are generally American citizens, whose travel both originates and
                     ends in American ports. International air passengers can be from anywhere,
                     including countries that are considered to be of high risk for agricultural
                     purposes.



USDA/OIG-A/33601-0005-Ch                                                                   Page 29
                     Regardless of the nationality of the passengers, however, we believe that the
                     key factor to be taken into account is the rate of Quarantined Material
                     Interceptions (QMI) found on the cruise ship study, and its relationship to
                     QMI rates from AQIM inspections of international air passengers. The
                     overall QMI rate for the cruise ship study, based on an inspection of three
                     passengers from each selected cruise ship, was 2.7 percent. Although APHIS
                     officials noted that the QMI rates for air passengers were as high as
                     8.4 percent for air passengers, we found that these figures were highly
                     variable based on location. While the AQIM-derived QMI rates for air
                     passengers did reach 8.4 percent in the Northeast area, the QMI rate in the
                     Western area was only 2.6 percent. By contrast, the cruise ship study results
                     for the Port of Miami, one of the largest cruise ship ports, resulted in a QMI
                     rate of 7.3 percent.

                     APHIS policy, based on the results of its study, is that cruise ship passengers
                     do not need to be routinely inspected on arrival by CBP inspectors. As a
                     result, these passengers can enter the country with little or no chance of being
                     inspected for prohibited agricultural products.

                     We continue to work with APHIS to resolve these issues as part of the
                     management decision process for Audit No. 33601-3-Ch. As a result, we are
                     not making any new recommendations on these issues.




USDA/OIG-A/33601-0005-Ch                                                                   Page 30
Scope and Methodology
                     We conducted our audit fieldwork from March 2004 through February 2005.
                     As part of our fieldwork, we contacted APHIS Headquarters officials in
                     Riverdale, Maryland. To the extent possible, we evaluated the effectiveness
                     of the coordination and communication between CBP and APHIS in ensuring
                     that the agricultural sector is safeguarded against foreign pests and diseases.
                     To assess the corrective actions taken to date by APHIS we:

                     •     Reviewed the corrective action APHIS had taken in relation to our prior
                           audit reports, including procedural and policy changes enacted by
                           APHIS;

                     •     Conducted interviews with responsible APHIS and FSIS officials;

                     •     Reviewed the DHS/USDA Memorandum of Agreement (MOA) and its
                           appendices to determine the authorities and responsibilities of each
                           Department with regard to agricultural inspections;

                     •     Evaluated the effectiveness of the coordination and communication
                           between CBP and APHIS in ensuring that the agricultural sector is
                           safeguarded against foreign pests and diseases;

                     Our review was limited in that we did not have contact with officials at CBP,
                     and were not able to perform onsite reviews at the ports-of-entry since these
                     are under CBP jurisdiction.

                     The audit was conducted in accordance with Government Auditing Standards
                     issued by the Comptroller General of the United States.




USDA/OIG-A/33601-0005-Ch                                                                  Page 31
Exhibit A




USDA/OIG-A/33601-0005-Ch   Page 32
USDA/OIG-A/33601-0005-Ch   Page 33
USDA/OIG-A/33601-0005-Ch   Page 34
USDA/OIG-A/33601-0005-Ch   Page 35
USDA/OIG-A/33601-0005-Ch   Page 36
Information copies of this report have been distributed to:

Administrator, APHIS                                          9
 Attn: Agency Liaison Officer
U.S. Government Accountability Office                         1
Office of the Chief Financial Officer
 Director, Planning and Accountability Division               1
Office of Management and Budget                               1
